HHS/OIG-Audit--"Audit of the Pension Plan at a Terminated Medicare Contractor, Blue Cross and Blue Shield of Massachusetts, (A-07-99-02537)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Pension Plan at a Terminated Medicare Contractor, Blue
Cross and Blue Shield of Massachusetts," (A-07-99-02537)
November 17, 1999
Complete Text of Report is available in PDF format
(1.3 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
Blue Cross Blue Shield of Massachusetts (BCBSM) served as a Medicare contractor
until their contract was terminated in 1997. Federal regulations and Medicare
contract provisions require pension gains, which occur when a Medicare segment
of a pension plan closes, be credited to the Medicare program. We identified
about $5.3 million in excess Medicare pension assets at BCBSM at the time of
contract termination. Our methodology and calculations were reviewed by the
Health Care Financing Administration's pension actuarial staff. We are recommending
that BCBSM remit the $5.3 million to the Medicare program.